Case: 19-40633

Document: 00515236323 Page: 1 Date Filed: 12/13/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
RECEIVED
FEB 1 9 2020
No. 19-40633

OFFICE OF THE CLERK
SUPREME COURT ! S.

A True Copy
Certified order issued Dec 13, 2019

JAMES EARVIN SANDERS,

w. £?CiA24
Clerk, U.S. Court of Alppeals, Fifth Circuit

Petitioner—Appellant,
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas

ORDER:
James Earvin Sanders, Texas prisoner # 1579328, moves for a certificate
of appealability (COA) to appeal the district court's dismissal of his 28 U.S.C.
§ 2254 application challenging his conviction and sentence for two counts of
aggravated robbery. The district court determined that the § 2254 application
was time barred and that Sanders was not entitled to tolling of the limitations
period. Sanders argues that the limitations period commenced either (1) the
date on which an impediment to filing created by state action was removed, or
(2) the date on which the facts supporting the claim could have been discovered
through due diligence. He also argues for equitable tolling.
To obtain a COA, Sanders must make "a substantial showing of the
denial of a constitutional right." 28 U.S.C. § 2253(c)(2). When the district court

Case: 19-40633

Document: 00515236323 Page: 2 Date Filed: 12/13/2019
No. 19-40633

denies relief based on procedural grounds, the applicant satisfies this standard
by showing that "jurists of reason would find it debatable whether the petition
states a valid claim of the denial of a constitutional right and that jurists of
reason would find it debatable whether the district court was correct in its
procedural ruling." Slack v. McDaniel, 529 U.S. 473, 484 (2000). Sanders has
not made the requisite showing.
Accordingly, IT IS ORDERED that Sanders's motion for a COA is
DENIED. His motion to proceed in forma pauperis on appeal is also DENIED.

DON R. WILLETT
UNITED STATES CIRCUIT JUDGE

2

